<html>
<title> - ACCESS TO PUBLIC LANDS: THE EFFECTS OF FOREST SERVICE ROAD CLOSURES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  ACCESS TO PUBLIC LANDS: THE EFFECTS OF FOREST SERVICE ROAD CLOSURES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                 THE INTERIOR, ENERGY, AND ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2018

                               __________

                           Serial No. 115-89

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                             __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-275 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d7a6d725d7e686e697578716d337e727033">[email&#160;protected]</a>                        
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
                          Becca Brown, Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director

                                 ------                                

          Subcommittee on the Interior, Energy and Environment


                    Greg Gianforte, Montana Chairman
Paul A. Gosar, Arizona, Vice Chair   Stacey E. Plaskett, Virgin 
Dennis Ross, Florida                     Islands, Ranking Minority 
Gary J. Palmer, Alabama                  Member
James Comer, Kentucky                Jamie Raskin, Maryland
Michael Cloud, Texas                 Jimmy Gomez, California
                                     (Vacancy)
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 26, 2018....................................     1

                               WITNESSES

Mr. Bill Harvey, Commission Chair, Baker County, Oregon
    Oral Statement...............................................     4
    Written Statement............................................     7
Ms. Amy Granat, Managing Director, California Off-Road Vehicle 
  Association
    Oral Statement...............................................    12
    Written Statement............................................    14
Mr. Jim Furnish, Consulting Forester, Former Deputy Chief for 
  National Forest Systems, U.S. Forest Service
    Oral Statement...............................................    25
    Written Statement............................................    27
The Honorable Kerry White, Representative, Montana House of 
  Representatives
    Oral Statement...............................................    30
    Written Statement............................................    32

 
  ACCESS TO PUBLIC LANDS: THE EFFECTS OF FOREST SERVICE ROAD CLOSURES

                              ----------                              


                         Tuesday, June 26, 2018

                  House of Representatives,
          Subcommittee on the Interior, Energy and 
                                        Environment
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Greg Gianforte 
[chairman of the subcommittee] presiding.
    Present: Representatives Gianforte, Gosar, Palmer, and 
Plaskett.
    Mr. Gianforte. The Subcommittee for Interior, Energy, and 
Environment will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time. Oh, and I see our last witness has arrived. 
Welcome.
    So I'll begin with my opening statement. Welcome and thank 
you for all for joining us this afternoon. The subcommittee on 
Interior, Energy, and Environment is meeting today to discuss 
the importance of access to our public lands managed by the 
Forest Service.
    The Forest Service manages about 200 million acres of land, 
more than 370,000 miles of roads and more than 158,000 miles of 
recreational trails across the United States, land that should 
be open and accessible for use and enjoyment of all Americans.
    Unfortunately, the Forest Service seems to be moving away 
from its original multiple-use mission. Although Congress has 
directed the Forest Service to manage land for grazing, 
recreation, and wildlife habitat, among other things, the 
Forest Service has locked up our public lands instead.
    My home State of Montana is a perfect example. According to 
a report by the Montana State Legislature's Environmental 
Quality Council, the Forest Service has closed more than 21,000 
miles of roads in Montana since the mid-1990s. That's nearly 
one-third of all the Forest Service roads in the State. Kerry 
White, the Montana State Representative who introduced the 
resolution to commission the report, is here today to discuss 
this important topic.
    Access to public lands is not a problem just in Montana. We 
know the Forest Service is closing and decommissioning roads in 
other States as well. That's why we will also hear from 
witnesses from California and Oregon who can share the 
challenges of access to Forest Service land in their 
communities. Keeping Forest Service land open to the public is 
important for a number of reasons. First, we need to preserve 
access for hiking, camping, hunting, fishing, and other outdoor 
recreation, the benefits of which speak for themselves.
    When the Forest Service blocks off roads and places 
excessive restrictions on public lands, it prevents people from 
participating in America's outdoor heritage. Outdoor recreation 
is also big business. Each year, people spend $887 billion on 
outdoor recreation, and the industry creates 7.6 million 
American jobs. Some of these jobs are with small business that 
depend on visitors to our public lands, such as guides, 
outfitters, ski areas, off-road vehicles and snowmobile 
dealers, even restaurants and gas stations.
    Additionally, access to forestlands can help prevent the 
spread of wildfires. If firefighters cannot quickly reach fires 
on the ground, more acres burn and more firefighting resources 
become necessary. Despite the measurable benefits of access to 
public lands, the Forest Service is under pressure to close and 
decommission thousands of miles of Forest Service-managed 
trails and roads. Burdensome regulations, inconsistent 
policies, lack of proper maintenance, and the constant threat 
of litigation all contribute to the trend towards road 
closures.
    The witnesses here today can discuss the importance of 
access to the Forest Service land, why the agency has trended 
toward road closures in recent years, and what we can do to 
restore public access to our public lands.
    The Forest Service certainly has room for improvement. 
However, this administration has made it clear that it's 
absolutely imperative for Federal agencies to work with States 
and local communities instead of dictating land management 
decisions from Washington. That's why I hope to see strong 
accountable leadership at the Forest Service soon.
    Finally, I want to say thank you to all the witnesses, some 
of whom traveled across the country to be here, and I look 
forward to hearing your testimony.
    I now recognize my friend, the ranking member, for her 
comments.
    Ms. Plaskett. Thank you very much. And good afternoon to 
everyone.
    Thank you, Mr. Chairman, for holding this hearing today. 
And welcome to the committee. This is going to be wonderful 
working together.
    We can all agree that our national forests, administered by 
the U.S. Forest Service, are among our Nation's treasures and 
that they should be enjoyed by all. That is why it has been a 
longstanding policy for decades by both Republican and 
Democratic administrations to regulate the use of off-highway 
vehicles on Forest Service lands and roads. This policy 
stretches back to President Nixon, who, in 1972, issued an 
executive order defining off-highway vehicles and directing 
agencies to manage their use on public lands so as to protect 
the resources of those lands, promote safety, and minimize 
conflicts among the various users of those lands.
    Still, the use of off-highway vehicles on Forest Service 
land soared since the 1970s, so much so that Dale Bosworth, 
President George W. Bush's Chief of U.S. Forest Service, listed 
unmanaged outdoor recreation as one of the four major threats 
to the health of the Nation's forests.
    Mr. Bosworth specifically mentioned off-highway vehicle 
users as part of the threat. He said, quote: ``Ninety-nine 
percent of the users are careful to protect the land. But with 
all of those millions of users, even a tiny percentage of 
problem use becomes relatively huge. Each year, the national 
forests and grasslands get hundreds of miles of unauthorized 
roads and trails due to repeated cross-country use. We're 
seeing more erosion, water degradation, and habitat 
destruction. We're seeing more conflicts between users. We have 
got to improve our management so we get responsible 
recreational use based on sound outdoor ethics.''
    Mr. Bosworth made it clear that to enable our national 
forests to accommodate a variety of uses, we cannot forget that 
there are costs to certain types of uses, not just benefits. 
And I'm hopeful that, in this hearing, we'll hear other issues 
on how we can work together to ensure that those different 
users and the different constituencies are managed properly.
    To address the problem of environmental degradation created 
by some off-highway vehicle users, the Bush era Forest Service 
issued the Travel Management Rule. The rule is designed to 
guide Forest Service managers' decisions by looking to those 
goals contained in President Nixon's executive order: sustained 
resource values, provide economic benefits to rural 
communities, promote safety, and minimize conflict among 
various users. The rule also explicitly requires public 
involvement and has a responsive process that is aimed at long-
term solutions for the transportation system through a given 
forest.
    While I do not have a national forest in my district, the 
U.S. Virgin Islands, we do have lands managed by the National 
Park Service, a tremendous amount of lands and percentages, 
particularly on the island of St. John. I'm familiar with the 
issue of public access to our natural resources. I hear far too 
often and frequently from our constituents who are involved in 
disputes with the National Park Service concerning what they 
believe is deliberately blocked roadways and land easement 
disputes, which are just in some instances to many of those 
constituents generational.
    We have seen an alarming escalation in the amount of 
residents engaged in real estate boundary and property line 
challenges with the National Park Service as well. It has been 
my experience that public access to government-owned lands are 
best resolved through public engagement and finding a balance 
between environmental and the communities in which those 
environments resides' interests. I hope that today's hearing 
will provide this opportunity.
    Finally, as I close, let me say that I'm hopeful that the 
committee will convene to examine how the Forest Service is 
handling sexual harassment allegations within the agencies as 
well.
    In December 2016, the committee held a hearing to examine 
sexual harassment in the U.S. Department of Agriculture, 
including the Forest Service. During that hearing, the 
committee heard from whistleblowers, who described not only how 
they had suffered prolonged harassment, but how they had also 
suffered retaliation when they reported the harassment. When 
the Forest Service had established a new process to handle 
sexual harassment allegations, it was clear that significant 
challenges remain and that many women are still scared to come 
forward. A recent PBS NewsHour investigation of the Forest 
Service, which was entitled ``They Reported Sexual Harassment. 
Then the Retaliation Began,'' featured disturbing interviews 
with several Forest Service veterans who reported not only 
assaults but also harassment. So I'd love for us to get an 
update on the committee's hearing from December 16. Thank you 
so much.
    Mr. Gianforte. Thank you for that.
    I am now very pleased to introduce our witnesses today. Mr. 
Bill Harvey is commissioner and chair of Baker County, Oregon; 
Ms. Amy Granat, managing director of the California Off-Road 
Vehicle Association; Mr. Jim Furnish, consulting forester and 
former U.S. Forest Service Deputy Chief for the National Forest 
Systems; and the Honorable Kerry White, representative in the 
Montana House of Representatives.
    Welcome to all of you.
    Pursuant to committee rules, all witnesses will be sworn in 
before we testify. Please remain seated and just raise your 
right hand, if you would. Do you solemnly swear or affirm the 
testimony you are about to give is the truth, the whole truth, 
and nothing but the truth, so help you God?
    Let the record reflect that the witnesses have answered in 
the affirmative.
    To allow time for discussion, we're going to ask for each 
person to limit their comments to 5 minutes. Additional--your 
entire written testimony will be entered into the record. As a 
reminder, the clock in front of you shows your remaining time. 
The light will turn yellow when you have 30 seconds and red 
when your time is up. Please also remember to press the button. 
You have to turn your microphone on to speak.
    At this time, we'll start with Mr. Harvey, if you would, 
for your 5 minutes of testimony.

                      WITNESS TESTIMONIES

                    TESTIMONY OF BILL HARVEY

    Mr. Harvey. Thank you, Mr. Chairman. I appreciate it.
    Ranking Member, committee members, thank you for today. I'm 
gratefully honored to be here today to speak to this issue in 
particular.
    I am a county commission chairman. That means I deal with 
the on-the-ground everyday issues with people, and land issues 
is the one thing I work on every single day of my career. This 
is a career that I've taken on because of the need from the 
citizens of my county, have emphasized they needed help to 
accomplish these things.
    In your statements, both of you mentioned things about 
Forest Service management, and I'd like to add to that 
mismanagement. Also, it's not Forest Service land. They manage 
it for the public. That's very important to our area 
especially, and our Forest Service address it that way.
    So I'd like to give you a little background on Baker 
County. That's where I'm from. This is in eastern Oregon. It's 
a drier climate than what the coast is. So we get about 12 
inches of measurable moisture a year. That's in the form of 
snow and rain.
    So road issues. There is little to no erosion in our area 
because the roads have been there for over 50 years. And the 
only time you have erosion issues is when the Forest Service 
comes in and rips them up with a Cat. They say that they have 
no money for restoration or maintenance or what have you, yet 
they spend a fortune in tearing roads out, good roads, roads 
that have been in place and used for vehicle traffic and off-
road traffic and what have you.
    I'm not sure if Mr. Bush's team ever visited eastern 
Oregon, but I would have gladly taken them out, either 
horseback riding, walking, hiking, or motorized travel as well. 
Motorized travel is very important in Baker County because we 
have 3,000 square miles in Baker County. That's bigger than the 
States of Rhode Island and Delaware.
    We have 2 million acres of land in Baker County. Half of 
it, 51.5 percent, is managed by the Federal Government, both by 
BLM and the Forest Service. Some of the things that we have 
left in the remaining 48 percent of our land is approximately 
950,000 acres plus, is for roads, rivers, towns, and private 
property.
    The citizens of Baker County rely on both public and 
private land for natural resources, recreation, and the ability 
to continue our way of life, especially for agriculture, 
livestock grazing, mining, and timber harvests. Therefore, all 
of the decisions affecting public lands could potentially 
affect Baker County's economy, customs, culture, and enjoyment 
of the land.
    When I moved to Baker County in 1972, the county had six 
timber mills, but we have none now. The forest keeps growing. 
The reason they did that was more of a philosophy change, not 
any sound science. No management principles or anything, just a 
change in philosophy.
    Well, our forests haven't changed. They're continuing to 
grow. They're continuing to die. They're continuing to be 
overcrowded. As an example, the Baker City watershed, 10,000 
acres. In historical measures, in 1900, there actually was 
pictures of it. There was 50 trees per acre. Today, we 
currently have 1,000 trees per acre.
    This watershed serves a town of 10,000 people. It is in 
drastic threat every single year. On average, we have four 
fires in the watershed a year. Miraculously, we throw 
everything we have at it instantly to take care of that issue, 
but we're not going to be able to keep it up.
    When I took office in 2015, we had historical fires the 
level that we have never had in any of our county whatsoever or 
since yet, and I emphasize yet. We had four major forest fires 
going on at the same time. We had 500 to 600 personnel from the 
Forest Service and BLM and everybody else there in Baker City 
trying to manage this fire--emphasize manage fire. We no longer 
fight fires; we manage them. Unfortunately, we manage them so 
that it's a big business. We bring a lot of people in clear 
across the country because they're first on the list to come 
and fight fires. I have fought very hard to allow our local 
firefighters to fight these fires immediately so that there's 
no threat to what the town is.
    I'd like to talk about coordination. Coordination is a 
principle and a way that we could actually make things happen. 
It is the law; Congress installed it. And I'd like to use that. 
If you want to have some of the things that work, that would be 
a great start to begin with. But the threat to our county 
economy is also severe when you limit the access that we have 
to our forests, and we do need those forests to help do that. 
Thank you very much.
    [Prepared statement of Mr. Harvey follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Gianforte. Thank you, Mr. Harvey.
    And we'll recognize Ms. Granat for her comments for 5 
minutes.

                    TESTIMONY OF AMY GRANAT

    Ms. Granat. Mr. Chairman, Madam Ranking Member, and 
distinguished members of the subcommittee, thank you for giving 
me the opportunity to testify. We work in partnership, 
California Off-Road Vehicle Association, with Sierra Access 
Coalition, both organizations working to protect forest access 
for a range of public uses. In 2004, former Chief Bosworth 
defined four major threats to our forests, including invasive 
species, wildfire, and loss of open space.
    However, the fourth thread, off-road recreation, directly 
targeted motorized-dependent activities and, by doing so, 
declared it an unacceptable use of forested land. The Travel 
Management Rule, or TMR, caused thousands of miles of road and 
trail closures through massive NEPA analyses that harm 
businesses, communities, disabled individuals, and every form 
of overland and over-snow travel. The public lost significant 
access to areas they loved.
    Although former Chief Bosworth also stated in 2004 that 
other forms of recreation can cause damage, horseback riding, 
bike riding, even hiking or camping, none of those uses have 
ever been subject to closure, curtailment, or regulatory 
action. The TMR requires people to limit travels to routes on a 
map called a Motor Vehicle Use Map. It is a poor map with no 
landmarks, but somehow people are supposed to follow only those 
routes shown. It's printed on a flimsy sheet of newsprint. The 
agency states that the MVUM, or Motorized Vehicle Use Map, is 
not intended to be a navigational tool, but it is the legally 
binding enforcement tool. Without knowing where they are, 
people can face fines of $5,000 and/or 6 months' imprisonment 
if found on the wrong road.
    Environmental organizations played a key role in the TMR 
decisionmaking process. The Wilderness Society wrote a travel 
management wish list to the agency, stating: We intend to 
provide as much data as we can to the region.
    Biologists from the Wilderness Society also provided 
transportation-related data for the travel management planning 
process. They provide the data. Then they get their way.
    To support closure decisions, the Forest Service used 
unverified and incomplete information and National Visitor User 
Monitoring, or NVUM, surveys to downplay the importance of 
motorized access. For the Inyo National Forest, for example, 
the NVUM indicated almost zero percent OHV activity, but 
information submitted on grant applications to the State of 
California showed 22 percent OHV primary activity visits. Both 
sets of data cannot be true at the same time. Information 
submitted to the Statewas subject to review and audit; 
therefore, it represents the true numbers.
    The Forest Service failed to coordinate with local 
governments, although regulations state agencies shall 
cooperate to the fullest extent possible to better integrate 
environmental impact statements into State and local planning 
processes. This strongly implies a working relationship with 
local governments and coordination/compliance with local 
planning. This issue is a high priority and deserves 
clarification and consequences in law. Coordination or 
compliance lacks teeth, requiring agencies to work in a 
meaningful manner with local governments.
    The Travel Management Rule has also been devastating to 
fire suppression efforts. Previously, fires were accessible to 
initial attack. With roads closed, fires burn out of control 
and make it difficult to get a dozer to cut a road near a fire. 
Catastrophic wildfire has increased exponentially on Forest 
Service land in California.
    Environmental groups may claim that road closures are 
beneficial to watershed, but sedimentation from a road can be 
mitigated and pales in comparison to sedimentation from a 
watershed devastated by wildfire.
    Travel management decisions have had a disproportionate 
impact on disabled visitors. The analysis for the Eldorado 
National Forest stated: Restrictions on public wheeled motor 
vehicle use will impact persons with disabilities to a greater 
extent, particularly for those routes which provide access to 
recreation opportunities, such as dispersed camping, stream 
site access, et cetera.
    But the agency dismissed all disabled concerns.
    The Rehabilitation Act of 1973 says that no person can be 
denied participation in a Federal program or facility solely 
because of their disability. National Forests are owned by the 
American people and funded by American citizens. The Forest 
Service is actively denying participation to disabled Americans 
and granting greater access to able-bodied Americans, making 
the disabled second-class citizens.
    Thank you very much for the opportunity.
    [Prepared statement of Ms. Granat follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Gianforte. Thank you, Ms. Granat.
    And now we'll recognize Mr. Furnish for your 5 minutes of 
testimony.

                    TESTIMONY OF JIM FURNISH

    Mr. Furnish. Thank you, Chairman Gianforte and Ranking 
Member Plaskett. I am Jim Furnish, former USDA Forest Service 
Deputy Chief for National Forest Systems. I retired in 2002, 
following a 35-year career in the agency.
    This career included jobs as a district ranger, also a 
forest supervisor. I managed national forests and their complex 
issues at both the policy level and the practical field level. 
I'm well acquainted with these issues, and I bring a wealth of 
experience.
    As a Bighorn National Forest ranger from 1977 to 1984, I 
took aggressive steps to reduce four-wheel drives and trails. 
As Siuslaw National Forest supervisor from 1991 to 1999, I 
completed a travel plan for the Oregon Dunes National 
Recreation Area, a globally significant off-highway vehicle 
area.
    Now, today, I hope to speak to four main issues: One is the 
emergence of off-highway vehicles as a potent force in 
reshaping land management considerations; second, the 
consequence of inadequate funding of road and trail maintenance 
and access; third, the adequacy of agency coordination with 
affected interests and parties; and, fourth, the ideological 
battle over perceived public rights to recreate on public 
lands.
    I'd like to take you back when I first started working for 
the Forest Service in the mid-sixties. OHVs were virtually 
unheard of. I watched this machine and the users and the 
recreation activity blossom over the course of my career to 
become one of the most dominant effects on our land management 
issues and the public we serve.
    I left the agency just before the travel management 
regulation that's been referenced, but this was an effort to 
address for the first time, really, in a comprehensive way the 
issue of off-highway vehicles and to strike a balance between 
appropriate use and access of the land and these machines with 
other necessary restrictions associated with the negative 
consequences.
    Historians will argue whether the Forest Service has done a 
good job because this effort continues, but the travel 
management regulation, in my view, as an extension of Nixon's 
earlier executive order back in the seventies, is part of the 
same tapestry that the Forest Service is using to try to get 
their arms around this vexing issue.
    It's been very much complicated by the funding. The Forest 
Service, for as long as I've been in the agency and since, has 
struggled with lack of road maintenance dollars as well as 
travel maintenance dollars. And this issue has been exacerbated 
in the recent decades relative to fire funding. And I would 
like to say that Congress has stepped up to try and deal with 
that fire funding issue. And so that is--that has helped, but 
nevertheless, the Forest Service continues to be chronically 
short of road maintenance and trail maintenance dollars.
    I would also say you can never get enough thoughtful 
cooperation, which brings me to coordination with groups and 
individuals interested in OHV issues and, more broadly, access 
to public lands. The Forest Service, as required by law and 
policy, has, since its very inception in the late 1800s, sought 
to coordinate with interested parties in reaching decisions. 
Seeking out and considering the views of all sides of an issue 
are the essence of public service.
    The agency uses public notices, holds public meetings, and 
has created numerous resource advisory committees, all in a 
spirit of coordination. All these are commonly used in dealing 
with OHV and access issues. I routinely accepted requests to 
meet with OHV advocates and groups, and these meetings often 
involved field trips to look at issues firsthand, which leads 
me to say there is a difference between listening, 
understanding, and agreeing.
    I think some parties do not feel listened to--coordinated 
with--when they are not agreed with. Put another way, 
coordination is deemed ineffective or nonexistent if decisions 
and outcomes are seen as unsatisfactory. I do not believe 
coordination necessitates agreement, especially when 
considering multiple viewpoints on contentious issues.
    And by far, the thorniest issue is an ideological one. For 
example, what does ``public land'' mean? What rights does it 
confer on citizens? What reasonable authority is vested in 
agency officials discharging their responsibility to manage 
OHVs and access in the public interest? And I would say, in 
reference to your comment that national forests are locked up, 
I would say they are open for business. Thank you.
    [Prepared statement of Mr. Furnish follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Gianforte. Thank you, Mr. Furnish.
    At this time, I'd like to recognize Representative White 
for your 5 minutes of testimony.

             TESTIMONY OF THE HONORABLE KERRY WHITE

    Mr. White. Thank you, Mr. Chairman, members of the 
committee.
    A little background on myself. My family has been in the 
Gallatin Valley for 150 years. My great-grandfather came there 
when he was 13 years old. And I've seen quite a change in the 
Forest Service over those years. Our family is a leaseholder 
with a cabin in the Storm Castle drainage. We currently pay 
over $3,000 a year in lease, but we only have access to the 
cabin half of the year because of the travel management plan 
that was passed by the Forest Service in 2004.
    When they came out with that plan, myself and 11 other 
folks started Citizens for Balanced Use, to try to understand 
why the Forest Service was closing about 50 percent of the 
roads and trails in that forest to motorized use. There was 
closures proposed for bicycles and mechanized use, and there 
was also proposed closures to horse.
    They came out with a draft environmental impact statement 
over 1,500 pages. And after that, they came out with a final 
environmental impact statement over 1,500 pages, and asked the 
public to consume and digest this document and provide 
substantive comments to the Forest Service. The general public 
is not the Forest Service with professionals to comprehend a 
document of that size. After that, the document was approved. 
The Record of Decision was signed. CBU sued that in Federal 
court in Missoula. We ultimately lost. We appealed that to 
Federal Court of the Ninth Circuit in California, and we 
ultimately lost. And that's our last opportunity. The Supreme 
Court is not going to take a case on Travel Management Rule and 
locking people out of the forest.
    I'd like you to take a look at the written testimony that I 
submitted. There's a photo there of the DEIS and the FEIS with 
a ruler showing the massive amount of document that's prepared 
by the Forest Service that the public is asked to look at. 
There's also a couple of pages of road closures. This is how 
the Forest Service closes the roads. They call them rip, slash, 
and seed, where they tear live trees out of the ground, stack 
them across the road. It blocks access for, not only motorized 
and mechanized use, but also hiking, horseback, cross-country 
skiing.
    There has been--and I would agree with Mr. Furnish--a 
significant increase in OHV use, but I would also refer to the 
recreation specialist's report from the Gallatin that shows 
national trends indicate that aging populations may desire more 
accessible opportunities. Our population is aging. We need 
those recreational access.
    There is also a photo illustration of four major cities in 
Montana last summer where air quality was hazardous. And 
there's also a report from the USDA 2013 Wildland Firefighter 
Smoke Exposure and the toxins that is in this smoke. There is 
also a chart from Montana Department of Environmental Quality, 
the State in which I'm from, that shows the effects from 
wildfire smoke. And in the top four categories of that chart, 
it will show you it causes premature mortality. In other words, 
these fires are killing people because of the toxins that are 
released in the air.
    There's also a picture that I've attached there of the 
erosion that happens, the sedimentation that goes into our 
streams. It shows the condition of our forests out there. Some 
of our forests out there are over 80 percent dead. And the 
Forest Service is not cutting the timber or not managing it 
actively. They're actually proposing to do more prescribed 
burns, which if you look at that report from the Firefighter 
Smoke, those toxins are released whether they are wildfire or 
prescribed burns.
    I just would ask this committee to bring attention to what 
we're faced in Montana. Almost 22,000 miles of roads closed. 
And I would just ask you to think a minute. The emotional 
impact that these closures have on a father or a grandfather 
that cannot take their kids or their grandkids to those places 
that they shared with their father or their grandfather before 
them, as there's a closed gate or obliterated road.
    Thank you, Mr. Chair.
    [Prepared statement of Mr. White follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Gianforte. Thank you, Mr. White.
    And thank you for the panel for your testimony.
    We'll now move to the period where the committee gets to 
ask questions, and I'll start, if I could.
    Back to you, Representative White. Could you please explain 
to the committee what prompted the need to study road closures 
in Montana? You initiated that in the State legislature, and it 
was completed by Department of Environmental quality, but help 
us with the--why did you do that?
    Mr. White. Thank you, Mr. Chairman and members of the 
committee.
    I first was elected to the legislature in 2013. I carried a 
bill that allowed the growth policy to be the legal document to 
coordinate because we were seeing road closures. 2004, as I 
mentioned, CBU was started. And through that organization, when 
I became a legislator, phone call after phone call. And U.S. 
legislators understand when there's an issue out there that's 
of importance, you get phone calls. And that's really what 
prompted it, from one end of the State to the other, from other 
States.
    And so I brought a study, HJ 13. I just wanted to see how 
much access we had lost that Forest Service and BLM--that study 
covers both of them--how much access we had lost in the last 20 
years. So what prompted it was a public outcry that we're 
losing access.
    Mr. Gianforte. And, again, just for the record, the study 
showed that one-third of all the roads in Montana had been 
closed by the Forest Service and BLM. Is that correct?
    Mr. White. Yes.
    Mr. Gianforte. Okay. Again, for Mr. White, does the Forest 
Service have reliable data on road closures, and would you 
suggest that other States do some more studies?
    Mr. White. Mr. Chairman, members of the committee, I would 
suggest that other States initiate a study like this. When we 
did this under the Environmental Quality Council, of which I 
was a member of and I chaired that subcommittee that was 
working on it, we worked on it with a liaison with the BLM and 
a liaison with the Forest Service that helped go through that 
study. But it was a long and tedious process because each one 
of those forests had to try to go back and find that 
information. And, in fact, the BLM is very lacking on their 
records and their inventory of roads and trails.
    The Forest Service was able to garner that information from 
all those, I think it might be 13 different forests within the 
State of Montana. And then our staff with the Environmental 
Quality Council put together that report. I have a link to that 
report that I submitted. If you go to that link, it's an 
interactive link. There's lots of things you can do through 
that link as those links inside of the study are active links 
to be able to do that.
    I would suggest that other States do that, first of all, 
because it would produce an accurate inventory of what is out 
there on the ground and then look back at what we've lost for 
access.
    Mr. Gianforte. Okay. Ms. Granat, could you describe the 
consequences of losing access to public land?
    Ms. Granat. The consequences are very broad, Mr. Chair. 
Every aspect of community life is affected. And for California, 
we have 19 forests. There isn't any other State that has as 
many forests as we do. So we have rural communities up and down 
the spine of the Sierra Nevada up until northern California 
that are not, by far, not wealthy communities. You take a 
little bit of recreation/tourism away from them and they start 
suffering. There's high poverty rates. There are higher jobless 
rates. There's a lack of services.
    One of the biggest problems is the lack of timber harvests 
because timber harvest, out of that, 25 percent used to go to 
schools and to road maintenance dollars of the proceeds of the 
harvest, of the timber sale. After now, there is no timber 
sales--there are no timber sales. There was a measure to secure 
rural school funding which tried to make up some of it, but 
where before there were a few million dollars that went to 
local economies, now it's much, much lower. So, really, older 
people are suffering and schoolchildren are suffering.
    Mr. Gianforte. Could you explain a little more about the 
economic impact on the local communities from lack of access?
    Ms. Granat. It's a very interesting thing because we 
actually studied the difference between motorized and 
nonmotorized recreations. The majority of nonmotorized 
recreations don't spend time in the local communities. They go 
out and go to their trailheads. They come back. Most of their 
equipment is purchased where they live in local stores. 
Motorized enthusiasts spend a lot of time. They go to hotel 
rooms. They go to restaurants. They do like to eat well, I 
would say. And they spend time in the local communities, and 
they go back off into those communities. Hunters, for example, 
will spend easily $1,300 to $2,000 a weekend.
    Mr. Gianforte. Okay. Thank you, Ms. Granat.
    At this time, I'd like to--well, I'd ask the same question 
of Mr. Harvey. What are the consequences of losing access to 
public lands?
    Mr. Harvey. Well, first off, we had a vibrant timber 
industry at one time. And they said, well, because of that, 
we'll open up the opportunities for having travel in the forest 
so that you can have a recreational economy. We did that. We 
expanded our efforts. We promoted, and we've done all that. 
That's one of the--part of the recreation that we have now is 
the biggest economy in Baker County, next to agriculture. But 
without the access, we have none. We're trying to expand it 
right now, use of off-road vehicles and also bike riding, 
mountain bike riding now. But if these same accesses are closed 
to one, they're going to be closed to both.
    And if you put everybody in the same area and diminish the 
amount of roads, then you create a dust hazard for everybody. 
And you're also putting multiuses on the same road. So you'll 
have off-road vehicles. You have four-wheel truck driving. 
You'll have potential log trucks on private land sales, and 
you'll have people who are horseback riding and what have you. 
This is a danger that we can't survive with.
    But if you close off the roads as they're trying to do 
right now, which is about 4,000 more miles of roads in Baker 
County, we don't have as much as Montana, but that's the 
lifeblood that we have. I live out there. I have for 45 years. 
I utilize that. I do off-road vehicle travel. I do horseback 
riding. Many ranchers take supplies out for their cattle on 
four-wheel drives and off-road vehicles, so they can get to the 
down areas that they need to get salt to their cattle.
    This whole area is a truly multiuse activity, and that's 
what benefits Baker County. Without our access, people can't do 
the thinning projects, and we can't do logging. So this does 
affect the economy.
    Mr. Gianforte. Okay. Thank you, Mr. Harvey.
    At this time, I'd like to recognize the ranking member, Ms. 
Plaskett, for her questions.
    Ms. Plaskett. Thank you very much. And this is really very 
interesting, the testimony and your questioning, Mr. Chair. I'm 
appreciative of the information that's been shared here.
    Mr. Furnish, thank you so much for giving us your insights 
and experiences at this hearing today. And you state in your 
testimony that, by law and policy, the Forest Service has 
always sought to coordinate with interested parties; and that, 
in such coordination, the Forest Service uses public notice, 
public meetings, numerous advisory committees to make 
decisions. Is that correct?
    Mr. Furnish. Correct.
    Ms. Plaskett. Can you give us an example of what that 
public notice would entail, how the public be would notified, 
and how that information would be disseminated?
    Mr. Furnish. Well, oftentimes these are legal notices in 
local newspapers as well as articles that show up in local 
newspapers. They put fliers and posters around local 
communities, libraries. If there are radio shows, they will 
often go on the radio, advertise upcoming meetings.
    And I would just say that, in my experience, the popularity 
of these open meetings to discuss contentious issues on 
national forests would provide the best testimony that people 
hear about this. They are not in the dark.
    Ms. Plaskett. Well, I know in my own community, you get a 
certain group of people that are very interested in this, and 
they're usually there to voice their concerns.
    Mr. Furnish. Yes.
    Ms. Plaskett. When you talk about numerous advisory 
committees, what do you mean by that?
    Mr. Furnish. Well, there was a provision a number of years 
ago for--I think the term is resource advisory committees or 
RACs. This would be one example of a federally constituted 
committee. And they have open meetings with selected 
representatives from all different constituencies.
    There are also ad hoc committees that deal on an issue-
oriented basis, that type of thing. So there are any number of 
groups and organizations that the Forest Service works with, 
both formally and informally.
    Ms. Plaskett. So one of the things that I think is key, and 
we've heard it a number of times in different testimony, is 
this idea about coordination.
    Mr. Furnish. Yes.
    Ms. Plaskett. And the coordination that's required under 
the law, and how does that actually take place on the ground. 
You talked from your own experience, being as a Forest Service 
manager, of having to coordinate different viewpoints. Can you 
explain to us what those different viewpoints were and how do 
you weigh that? How does that occur, in your practical 
experience?
    Mr. Furnish. Well, it's difficult.
    Ms. Plaskett. It's still giving you pause even after all 
these years?
    Mr. Furnish. I mean, it is difficult just because it's 
something of an art as well as a science. But, I mean, let me 
take you to the Oregon Dunes National Recreation Area. This was 
a fantastic dune system on the Oregon coast. It's one of the 
world's best off-highway vehicle riding areas and enormously 
popular, and it's a huge economic driver for the local 
communities.
    We had formal meetings. We did an EIS. We did all of that 
kind of stuff. And some of these meetings were attended by 
hundreds of people. But we also did field trips. And I had an 
associate there, Arnold Ryland, who worked with Oregon Off-
Highway Vehicle Association, I'm sure much like the woman here 
from California.
    And Arnold and I met repeatedly in office as well as out in 
the field so that he could share his views, I could share my 
views. And I also met with conservation groups, who, frankly, 
didn't like off-highway vehicles and wanted to know what I was 
going to do to restrict them.
    I would just say that we came up with in the long run what 
I think was a fairly balanced plan that gave all parties some 
of what they wanted and also denied all parties some of what 
they wanted.
    Ms. Plaskett. So, for example, in the discussion that we've 
had, what--for instance, would you characterize the views of 
hunters and fishermen at the same time off-highway vehicle 
users? Do those--are there times when those viewpoints 
converge? Are they usually oppositional to one another? How do 
you manage that?
    Mr. Furnish. Well, you know, it's interesting. The hunting 
and fishing community I think illustrates within itself a 
conflict and a contrast, because I happen to know some dear 
friends who are resolute about never using an off-highway 
vehicle in the pursuit of hunting. I also know fishermen who 
are determined to hike in.
    I also know those who would like to be able to drive an OHV 
up to their bagged game, throw it in back and drive back to 
camp. I know fishermen who would like to be able to drive right 
up to a platform that's provided for people with disabilities. 
All these things I would argue are necessary, but it's 
impossible to provide them everywhere all the time for all 
people.
    Ms. Plaskett. So the Travel Management Rule requires that 
the Forest Service involve the public. So let me move on to 
that. I wanted to ask you about the funding. You talked about 
funding issues that you have.
    Mr. Furnish. Yes.
    Ms. Plaskett. Can you explain that a little bit more?
    Mr. Furnish. Well, bear in mind I left the Forest Service 
in 2002, so I'm not as conversant as I was when I was the 
Deputy Chief. But I would just say, throughout my career, I 
would say this has been an area of chronic underfunding of both 
road maintenance as well as trail maintenance.
    And I would argue it's a simple business proposition. If 
you don't have the necessary funding to take care of your 
business, you need to whittle it down. And so this was largely 
driven by the creation of many of these roads and trails 
through two things. The first was timber activity, which we saw 
many of the national forests logged from the fifties throughout 
the nineties that created thousands and thousands of miles of 
road; also, unrestrained off-highway vehicles that created 
numerous, hundreds of thousands of miles of trails that were 
not engineered.
    These two features I would argue, logging roads as well as 
off-highway vehicle-created trails, came to real loggerheads 
with the lack of funding and necessitated this travel 
management regulation and the necessary comprehensive planning 
to try to right-size the trail and road system.
    Ms. Plaskett. Thank you.
    And thank you for your indulgence, Mr. Chair. I yield back.
    Mr. Gianforte. Thank you. At this time, the chair 
recognizes Mr. Gosar for his questions.
    Mr. Gosar. So, Mr. Furnish, isn't a lot of the underfunding 
fire borrowing, because you've seen its advent since you've 
been in the Forest Service, these huge catastrophic fires? And 
so we strip all the rest of the funding for the Forest Service 
because we got to pay for these humongous catastrophic fires. 
Isn't that true? The answer is yes. I don't want you to get any 
crossways. I'm from Arizona, and I'm originally from Wyoming.
    So it's been brought to my attention that a Forest Service 
gate was placed across Forest Road 219, Horseshoe Bend Road, 
blocking access to considerable public land acres behind the 
gate, as right here, with no appropriate level of analysis or 
document rationale to do so.
    Further, it's my understanding this gate is locked and 
recreation staff who manage the float trips on your forest are 
one of the few who have a key. Now, this is a serious matter if 
access is impacted for State and local government 
administrations in addition to the fact that it prohibits 
public use of public land and legal obligations of permitted 
grazing allotment management. Just to let you know, what this 
basically says is it says wilderness, and it's not even close 
to wilderness.
    Mr. Furnish. Well, I can't see the pictures.
    Mr. Gosar. I'm explaining it to you. You'll have to trust 
me on this one, okay?
    Mr. Furnish. I'll try.
    Mr. Gosar. So, additionally to this gate, for some time, 
there was a sign that read national forest wilderness, 
misleading the public that directly behind the gate is a 
wilderness. This picture shows that that wilderness area isn't 
there. This is and has never been designated a wilderness area 
and on quite the contrary. There are many acres of multiple use 
lands directly beyond this gate before the true wilderness 
begins. So this is not your just average gate, okay? This is 
severely constructed.
    Mr. Furnish. I assume that's a road, not a trail.
    Mr. Gosar. It's a road, yeah, and here it is. You can see 
where the road comes down the bottom right-hand corner to, 
yeah, your right-hand corner, and you can see private and then 
way over here is the wilderness. Here is the gate, gives you a 
little bit more application here. So, I mean, you know, once 
again, we constantly have these problems.
    Now, is it common practice for the Forest Service to put up 
gates blocking access and signs designating wilderness in 
nonwilderness areas?
    Mr. Furnish. I would hope no.
    Mr. Gosar. I just showed you one.
    Mr. Furnish. Well, you asked me if it's common practice. We 
have 200 million----
    Mr. Gosar. There are a whole bunch of them in Arizona. I 
mean, I can tell you right now, Mr. Furnish. I mean, you came 
as an expert here. And so we had--my first term we had the 
Wallowa fire up in northeastern Arizona.
    Mr. Furnish. I'm familiar with it.
    Mr. Gosar. Okay? And what ended up happening is, is they 
actually closed the roads. They locked them up. And I went to 
the chief, and I said: Listen, you got a problem coming because 
what you're doing is you're locking people out of their 
livelihood. And what's going to happen, we're going to have a 
gunfight; someone's going to get killed; and it's your problem. 
I instantly had the sheriffs who had all the keys.
    So we got a problem here. This isn't exactly what you have 
stated, is that we've had these catastrophic wildfires, and the 
reason we have those catastrophic fires is because you've 
mismanaged the forest. And what ends up happening is, before 
that time, we didn't have these kind of catastrophic fires in 
Arizona, because they were limited 8,000 acres or less because 
we had access to those, because we had fundamental access to 
the livelihood called the forest. You either manage it or it 
manages you.
    So, Mr. White, the comment was made about recreation and 
trout fishermen and stuff. When you have these catastrophic 
fires, does it help trout?
    Mr. White. No, sir.
    Mr. Gosar. It actually kills them off, doesn't it?
    Mr. White. Yes, sir.
    Mr. Gosar. Because what ends up happening, these forest 
fires are so intensely hot that they actually sterilize the 
soil.
    Mr. White. Yes, sir. I actually had pictures I was going to 
provide the committee on Elk that were burned up, domestic 
livestock, horses, cows, fish baked in the streams, squirrels. 
Everything in the forest is completely incinerated, but I just 
didn't give that to the committee.
    Mr. Gosar. I want you to bring those pictures.
    Mr. White. I will.
    Mr. Gianforte. Now, Mr. Furnish, I'm going to ask you 
another question. What's worse? What is easier mitigated, a 
road or sterilized soil from a catastrophic fire?
    Mr. Furnish. What is easier----
    Mr. Gosar. What's easier mitigated ecologically, a road or 
a catastrophically incinerated soil?
    Mr. Furnish. That depends on many things. It depends on how 
many acres of such sterilized soil you're talking about.
    Mr. Gosar. I tell you what, sterilized soil is by far----
    Mr. Furnish. Are you talking about a 50-mile road or a 1-
mile road, 2,000 acres of sterilized soils, 100 acres?
    Mr. Gosar. It takes 50 years just to get microbes in 
sterilized soil, 50 years.
    Mr. Harvey, is it easier to mitigate that road or that 
sterilized soil?
    Mr. Harvey. The roads are far more----
    Mr. Gosar. That's what I thought. That's what I thought.
    Mr. Chairman, once again, when we have these discussions 
about locking up the access to the public, it would be nice to 
have specialists that actually can talk about this that are 
currently involved in the Forest Service so they can be held 
accountable.
    I yield back.
    Mr. Gianforte. Thank you.
    At this time, the chair would recognize Mr. Palmer for his 
questions.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Gianforte. And if I could, just 1 second. I think that, 
with the number of committee members here, we'll probably do 
another round if people want to stay.
    Mr. Palmer. Okay.
    Mr. Gianforte. And I talked to the ranking member about 
that.
    So go ahead, Mr. Palmer.
    Mr. Palmer. All right. Thank you, Mr. Chairman.
    Reclaiming my time, we have had some discussion just now 
about forest management. There was also the issue of managing 
forests, particularly old-growth forests, relative to spotted 
owl, and the Forest Service and the various Federal agencies 
came up with this idea that it had to be all old growth. It 
turns out that wasn't the case. I mean, once they figured out 
that the spotted owl preferred cover and taller trees and not 
the extensive canopy cover of the smaller trees, they realized 
the biggest threat was the barred owl. I mean, they literally, 
Mr. Chairman, were making a decision to hire people to go out 
and kill barred owls.
    So we've been all over the roadmap, if not the forest floor 
roadmap, on how to manage forests. And a lot of what has been 
discussed is wrong in regard to--I'm a forest owner, by the 
way, private landowner. And I understand that the buildup of 
fuel on the forest floor is extremely dangerous. It is 
dangerous for your investment. It is dangerous to neighboring 
landowners. And it has certainly been catastrophically 
dangerous in a number of our Western States, with uncontrolled 
forest fires. And it's largely because of poor forest 
management and lack of access. And it creates a greater danger 
for those fighting fires, because once you get into an area 
that doesn't have access, you really do isolate firefighters 
and put them in grave danger at times.
    So my point is, Mr. Furnish, you testified in a hearing 
almost a year ago, a year and 2 weeks ago tomorrow, or today, 
actually, on resilient forests and a bill that I thought was a 
very sensible approach to managing our Federal forests. It 
allowed for management of the forests, much like I try to 
manage the forestland that I'm a part-owner in.
    But you had this position that it endangered the forest, to 
go in and remove trees that don't have a benefit for wildlife, 
particularly--there are some that do--but that somehow you 
concluded that it would disturb the forest. And what we've seen 
are hundreds of millions of acres that have been lost.
    I don't understand that. You go look at some of the State-
managed forests, not all of them but some of them, and it's a 
decided advantage. And, again, looking at the privately managed 
forests.
    So I just wonder what your thinking is in regard to 
limiting access. Now, you know, I understand not wanting to 
have four-wheelers racing all over forestland. I get that. You 
can manage that. I managed it on my property. But why would we 
not want to get in and make sure that we have healthy forest? 
Because what we're seeing right now is not working.
    Mr. Harvey?
    Mr. Harvey. No, sir, it's not. And I'd like to touch base 
on coordination, because that's a key aspect of it.
    Mr. Palmer. Uh-huh.
    Mr. Harvey. It's not working on the ground. When I talked 
to the Forest Service supervisor in my area and the district 
ranger, I asked, do you even know what I'm talking about, and 
they said, no, we've never heard of it. So maybe in Washington, 
D.C. they talked about it, but they did not transfer that down 
to the ground level that I have to deal with on a daily basis.
    We, as four-wheelers, horseback riders, or what have you, 
we're in the forest. When we see a danger, we call it in 
immediately. We diminish the threat to our forest. We manage 
our forests on private lands and State lands far greater than 
the Forest Service even remotely comes close to. So, yeah, 
proper management can happen, it does happen, but not at that 
level.
    And they also say, we don't have enough money. The problem 
with not having enough money, it's growing right in front of 
you. It's called trees.
    Mr. Palmer. That's exactly right.
    The only forester in Congress is Congressman Bruce 
Westerman, who's a dear friend of mine, and we have forest 
management as a common interest. And the thing about properly 
managing forest is that you get the fuel off the forest floor, 
you are able to manage it to protect it from severe drought 
situations by thinning, and you also protect it from insect 
infestation. We've got this issue in Alabama with the pine 
beetles where you literally have to go in and remove the 
infected trees and the trees in the adjacent area. That's how 
you preserve the forest.
    And, Representative White, you mentioned--I don't know 
where you got the number, but you said 80 percent of the trees 
are dead. I've flown over some forests, and I, looking down in 
the summertime at the canopy, can see the dead trees and know 
that that is going to eventually spread to other areas if you 
don't get in and cut those out.
    If I may allow the witness to comment, and I yield back.
    Mr. White. Thank you, Representative.
    We had a massive outbreak of beetle kill in Montana. We 
tried to get in and maybe harvest some of those trees. 
Litigation pretty much stopped that, from environmental groups 
that actually don't want any kind of active forest management. 
They support burning it. Now those trees, after that amount of 
time, they're just falling over.
    The fuel load on the floor of the forest is unreal in some 
of those areas. And the wildlife--this study, HJ13 study, will 
show a movement of wildlife from public lands to private 
property, an increase in wildlife, because of the habitat 
degradation on those public lands. There is no habitat for 
those animals. So we're seeing an influx of animals on private 
land, which then causes an economic hardship on those private 
landowners. So it's kind of a catch-22.
    Mr. Gianforte. Okay.
    So I think we'll--they've called votes for, like. 20 
minutes. We probably have enough time for another round of 
questions here.
    And if I could start with you, Mr. White, I wanted to go 
back to your example about this lease you have. Is that on 
forestland?
    Mr. White. Yes, sir. My grandfather got that in 1934.
    Mr. Gianforte. So it's been in the family a while.
    Mr. White. My grandfather and grandmother built a cabin, 
hand-peeled the logs.
    Mr. Gianforte. And you used to have year-round access to 
that cabin?
    Mr. White. Yes, we did.
    Mr. Gianforte. And when did the access get restricted?
    Mr. White. 2008, when the tribal plan was signed, they put 
a gate at the bridge. And when I say we used to have year-round 
access, that was by vehicle travel. Now we can access it in the 
wintertime if there's enough snow cover on the road for 
snowmobiles. But where they put the gate, there's about 2 or 3 
miles that melts out real early, so there's a month or 2 that 
we cannot access it at all.
    Mr. Gianforte. Okay. When this travel plan was changed, 
were your lease arrangements reduced to compensate you for not 
having access to the property?
    Mr. White. No, sir.
    Mr. Gianforte. Okay.
    And we heard about all this public notice. You talked about 
the 1,500-page document that you had to review. Were there 
public meetings related to this travel plan?
    Mr. White. Yes, there were, Mr. Chairman.
    And, you know, I think years ago in a public hearing the 
Forest Service would sit up there and answer questions from the 
public in a public setting. Now what you have is little 
stations and little tables where you go around, and there will 
be a hydrologist, and there will be a silviculturist, and there 
will be a recreation manager. And so, you know, they kind of 
tend to separate the people, and the people don't really have 
the opportunity to ask those questions.
    Mr. Gianforte. Do you feel, through that--you went through 
that process.
    Mr. White. Yes.
    Mr. Gianforte. Do you feel that your concerns were 
incorporated into the travel management plan?
    Mr. White. No, sir.
    Mr. Gianforte. Okay.
    We've heard a lot of discussion today about off-highway 
vehicles. But isn't it the case that many of these road 
closures are not about off-highway vehicles, they're about 
pickup trucks just transporting people on developed roads?
    Mr. White. Mr. Chairman, the pictures that I showed of 
those road closures, rip, slash, and seed, they are completely 
obliterating that road or trail. It's gone for everyone. No 
more maintenance on that trail, because that trail never 
existed.
    And I provided copies of maps from 1934 to the Forest 
Service and all the trails that were on that. And you look at a 
current Forest Service map, and you will see, once they 
obliterate that trail, they remove it from the map. It was like 
it was never there.
    So when they say that these were user-created routes and 
stuff, I challenge them to look at the old maps of the Forest 
Service and actually look at what was on the ground.
    Mr. Gianforte. Okay. Thank you for that.
    Mr. Harvey, we've heard about families being unable to 
access drainages where they've hunted generations ago and all 
of a sudden the decision by the Forest Service completely cuts 
the family off from access. We've heard about leases.
    I'm interested in your comments about how, in your area, 
road closures impact the public's ability to get access to the 
land.
    Mr. Harvey. Many of the people in Baker County have lived 
there for all their lives, their families for many years, like 
Mr. Kerry's. The problem is, now that Forest Service wants to 
close the roads--and these are good roads. These are engineered 
roads, as the gentleman pointed out. The problem is we don't 
need engineered roads for off-wheel vehicles. And the roads 
that we ride in personally are old logging trails. We're not 
doing any damage to them.
    But the thing is we pleasure-ride; we don't race. And we 
police ourselves. We pick up trash if there is any.We go after 
people who are disobeying the laws and things like that.
    But the coordination process could work on what roads 
should be or could be closed if necessary. The coordination is 
actually government-to-government. I don't need them to put out 
a public notice that they're having a public meeting, take 
everybody's input, and treat the counties as the public. That's 
what they do. That's not the law of coordination. Coordination 
is actual sitting down, designing the plans from the beginning, 
not coming in at the end and commenting like anybody else.
    If we had the opportunity to sit down and help design these 
plans, we could alleviate 15 years of the planning process, 
because we would be a partner with them. And we would go to the 
public and say, this is what your input to us and ours to them 
has brought forth. And that's what coordination truly is.
    Mr. Gianforte. Thank you.
    Ms. Granat, if you could comment on how these road closures 
have impacted your use of public lands.
    Ms. Granat. As a disabled person, a mother, and a 
grandmother, I got involved in this for a very personal reason. 
We went to go on a trail--and I am that fabled off-roader that 
takes my Jeep through the woods. I haven't raced in a really 
long time, but I do like a good challenge. So, you know, when I 
go home, I'm just an average Jeeper.
    But we went to go on a trail and didn't realize until we 
saw it that there was a gate across the road, and the road had 
been closed in the year interim. And I told my friends, my 
kids, you know, go ahead, go see the road, go see what 
happened, but I couldn't walk any further, and so I had to stay 
by the road while they went inside. And I sat by my Jeep very 
sad.
    Getting areas closed off to you, knowing that you will 
never, ever see them again--every additional wilderness, every 
additional wilderness study area, every additional nonmotorized 
back-country, there are so many designations, and they limit 
access to people.
    And it's so many people now that are--you know, I'm a baby 
boomer. We're getting older. And the areas that people have had 
access to for years, as Representative White was saying--I work 
with hunters all the time who say: But I can't get back there. 
I can't take--you know, how can I hunt if I can't take a game 
card into a wilderness?
    Wheelchairs are illegal in wilderness. They're not allowed. 
So that's the extent to where we have gotten in keeping people 
out.
    Mr. Gianforte. Okay. Thank you.
    At this time, Ms. Plaskett, do you have additional 
question?
    Ms. Plaskett. Yes. Thank you very much.
    We've talked quite a bit about the travel management rule. 
And one of the things that we've discussed is the road system 
and the part called the ``Road System Management: 
Identification of Unneeded Roads.'' ``Forest officials should 
give priority to decommissioning those unneeded roads that pose 
the greatest risk to public safety or environmental 
degradation.''
    Mr. Furnish, during your time at the Forest Service, what 
were some of the reasons you encountered as to why a road maybe 
needed to be closed?
    Mr. Furnish. Well, one of the main reasons has to do with 
unmaintained roads and sedimentation that affects water 
quality. That's one of the big ones.
    Sometimes it's a single-purpose road, like for timber 
management. And so if you're logging an area and then you don't 
intend to go back there for 20 or 30 years--that was intended 
to log, and so, when the logging is over, close the road, wait 
30 years. When you come back, you can open it up again.
    Ms. Plaskett. And are times given--is something put in that 
says that this road will reopen in 20 years? Or is it that then 
you just have to----
    Mr. Furnish. Typically not, because I think that's too far 
to foresee with any kind of precision.
    Ms. Plaskett. So then how does a logger then be able to 
have that road reopened for them to be able to use it?
    Mr. Furnish. Well, generally, the road prism, the structure 
of the road, is still there, and you can just come in with a 
blade, a piece of equipment, and just reshape it and it's ready 
for use.
    Ms. Plaskett. But if it's closed off for those purposes, 
would they have to----
    Mr. Furnish. Well, there's a difference between whether a 
road has actually been decommissioned versus just closed.
    Ms. Plaskett. Okay.
    Mr. Furnish. If a road has simply been closed, it can 
simply be reopened again by reopening a gate. But if it's been 
decommissioned, then it's really not intended to, for instance, 
log that area again.
    Ms. Plaskett. How do you balance that against the reasons 
that people are given and, you know, some of the really 
compelling testimony that's here today with others to keep a 
road open?
    Mr. Furnish. Well, I would first make the point that 
closures do not necessarily reduce use. I would say they tend 
to concentrate use. If you have fewer roads for people to 
operate on, it will tend to concentrate use. But it doesn't 
necessarily follow that if you close 20 percent of the roads in 
an area that 20 percent of the users will disappear.
    Ms. Plaskett. Right.
    Mr. Furnish. That is not a corollary.
    Ms. Plaskett. So, when that happens, that puts more stress 
on those roads that are being used, right?
    Mr. Furnish. Well, but if you have limited maintenance 
dollars, you want to try and apply them on the best roads you 
have to try and serve the using public.
    And I think what's been left out of much of the discussion 
we've had today is the people who don't use motorized vehicles 
who are hikers, mountain bikers, that kind of thing. And the 
footprint of an off-highway vehicle is much larger than that of 
a pedestrian. They can cover so much more ground, and the 
associated noise and that type of thing. They just have a much 
bigger impact on----
    Ms. Plaskett. The off-highway vehicles.
    Mr. Furnish. Yeah. Uh-huh.
    Ms. Plaskett. And when you talk about those off-highway 
vehicles and the impact that they have, road damage, et cetera, 
there is a variety of problems that can occur. Based on your 
experience, what type of problems are created when Forest 
Service roads, either those in the official system or those 
that are unauthorized, cannot be adequately maintained?
    Mr. Furnish. Can you rephrase that?
    Ms. Plaskett. I'm sorry. So what problems that can be 
created on these roads by the off-highway vehicles, the roads 
that are unauthorized or even those that are authorized, if you 
don't have the funding or the support to maintain them?
    Mr. Furnish. Well, I mean, one of the biggest problems has 
to do, again, I would say, with sediment and clean water. You 
also have wildlife habitat issues. There are a lot of 
endangered species and that kind of thing that don't relate 
well to motorized vehicle activity.
    And so trying to balance all of these things, as well as, 
like, with hunters and fishers, who would prefer to practice 
that form of recreation without the use of off-highway 
vehicles, and trying to balance that with those who do, having 
areas to hunt and fish where you don't have off-highway vehicle 
trails open would be a valid consideration.
    Ms. Plaskett. Sure.
    And you stated for your own example, as a Bighorn National 
Forest ranger, taking aggressive steps. Why was that needed in 
that instance?
    Mr. Furnish. Well, one was that we just had so many four-
wheel-drive roads, and they were virtually unmaintained.
    I will say that I've been a frequent visitor to the Bighorn 
in the years since, as recently as 1 year ago, and I would like 
to offer testimony, with my own eyes, that it is true that most 
of the off-highway vehicle users and other users of the 
national forest are wonderful, law-abiding citizens.
    And it was a thrill to see that system in use there on the 
Bighorn, where they had gone through a travel planning process, 
had decided which roads and trails would be opened, which ones 
would be closed, and to see people out recreating openly on an 
accessible national forest, with some restrictions, and having 
a great time. And I was one of them.
    Ms. Plaskett. Okay. Thank you very much.
    Mr. Gianforte. Thank you.
    And the chair recognizes Mr. Gosar for 5 minutes.
    Mr. Gosar. So, Mr. Harvey and Ms. Granat, are you familiar 
with the Arizona Peace Trail?
    Mr. Harvey. I'm sorry, I'm not.
    Ms. Granat. I am a bit.
    Mr. Gosar. Okay. So this was kind of a very well-
orchestrated plan, road plan, with the BLM over on the west 
side of Arizona. And what they did is they worked in 
coordination, Mr. Harvey, with the BLM to designate what roads 
they wanted to keep on and help manage themselves. Pretty 
successful. Very successful.
    So you come back to that coordination, Mr. Harvey. It's not 
about just opening wanton. You made the comment that, you know, 
we police ourselves and we turn people in that are not abiding. 
Is that true?
    Mr. Harvey. Yes, sir.
    Mr. Gosar. Ms. Granat?
    Ms. Granat. Absolutely. I'm a tread trainer for Tread 
Lightly, and that's one of the principles that Tread Lightly 
teaches.
    We have in almost every forest in California volunteer off-
road groups that go around and patrol. Particularly successful: 
San Bernardino National Forest, Rubicon Trail. These are all 
patrolled by volunteers all weekend. And if they need 
assistance, they ask the local sheriffs for help.
    But we're adamant that we need proper, responsible behavior 
on a trail.
    Mr. Gosar. So, Mr. White, most of this management plan 
really wasn't dictated by common citizens. It was done by sue 
and settle, wasn't it?
    Mr. White. Yes.
    Mr. Gosar. So let me get this straight. So what we did is 
we sued on behalf of a group--and they were named earlier on. I 
openly talk about Center for Biological Diversity. You know, 
because Mr. Furnish actually said it's more of--it's as much of 
an art as it is about science. I don't know about that.
    But what ends up happening is these groups come in and they 
sue. And then what ends up happening, there's a decision with 
the Justice Department. And, to be honest with you, we're not 
entitled to see, or we haven't been able to see those 
forecasts.
    But a lot of what's happened, particularly in Arizona, is 
that--that shut down all our timber sales, by the way. You 
know, it was the three different lawsuits in 1979 and then in 
'81 and then in '82 and '84, and it just kept growing. And so 
that's why we have this problem.
    So you brought up the individual. Well, how does that 
impact the lease, like, say, a grazing lease?
    Mr. White. Representative, anytime you close access, it 
affects anybody that has anything up there, whether it's 
grazing lease, whether it's a timber sale for active 
management, whether it's a cabin lease, whether it's a mining 
claim, patented mining claim. CBU got calls all the time, ``We 
can't access our mining claim anymore.''
    Mr. Gosar. Right.
    Mr. White. And that's a very popular activity, whether it's 
a gold panning association, which is a supporter of ours in the 
State, or a person that actually owns a mining claim.
    And I will say, on the litigation side, two groups in the 
State of Montana, basically two individuals, Alliance for the 
Wild Rockies and Native Ecosystems, are responsible for 70 
percent of the litigation shutting down our timber industry. We 
used to have 31 mills. I think we're down to seven or nine or 
something like that within our State. And these were good-
paying jobs.
    And being in legislature, those good-paying jobs being 
gone, we have reduced income tax collection, which reduces 
revenue to our State budget, which reduces the services that we 
can provide for the citizens of Montana. And I'm sure Mr. 
Harvey can tell you the problems in a county commission trying 
to provide services to those people in the county.
    Mr. Gosar. So, Mr. Harvey, going back to you, with the loss 
of Secure Rural Schools, have you seen a huge impact after 
that?
    Mr. Harvey. We will. We just received it this year. We have 
1 more year. But the problem is our road department, which 
takes care of snow removal in winter, which keeps access to 
everything, was reduced by half. We went from 34 employees to 
17 because of the loss of revenue from timber industry.
    And, also, yet some of the sales that we do have, they tear 
up the roads, but we get no revenue from it anymore. We have no 
mill. That goes to Idaho or it goes to another county in 
Oregon.
    But this aspect I have to look at from a county's 
perspective. Yes, the revenue diminishes, but the cost of 
services go up. And we either provide it as best we can or we 
cut services.
    Mr. Gosar. Well, and I want to get back to one more point, 
is management of the forest. A dynamic forest is a little new 
growth, a little medium growth, a little bit of old growth, 
because they all have special functions within the dynamics. 
And so it's not about if; it's how you have to continue to 
utilize and work the forest. And that's been our problem, is 
that we haven't been, and we're reaping the disasters that are 
occurring.
    And part of this application is the roadless rule, is 
closing off--I'll give you an example here. This is a nightmare 
for people back home. I mean, I'll give you one more example, 
if I can have a little indulgence.
    Mr. Gianforte. Yes.
    Mr. Gosar. We have a place called Fossil Creek. Do you know 
about it, Mr. Furnish?
    Mr. Furnish. I've heard of it.
    Mr. Gosar. Yeah. So what ends up happening is, it's one of 
these wonderful areas that there's water in Arizona, for God's 
sakes, water. And everybody is attracted to that. But what ends 
up happening is that we have these things called monsoons. Do 
you know that they refused to put a road in there--there 
actually is a road in there. They want to destroy the road. And 
so what ends up happening, for emergency services to get there, 
it takes over 8 hours and a helicopter ride.
    This is absurd. This is absolutely absurd. To be able to 
look at a natural wonder, take care of that, and be able to 
have safety and access. It's just mind-boggling.
    I yield back.
    Mr. Gianforte. Thank you.
    And we'll recognize Mr. Palmer for the final round of 
questions.
    Mr. Palmer. Thank you, Mr. Chairman.
    And I thank the witnesses.
    I want to get back to the discussion that we were engaged 
in in my first round of questions. And one of things that I 
think you mentioned, Mr. Harvey, was the ability to pay for our 
forest management by utilizing--it may have been Representative 
White who said this, but one of you mentioned this--by sensible 
forest management. That is, thinning, select cutting. That's 
how you pay for the forest management.
    One of the--I was thinking about this as we were sitting 
here. We talked about the excessive amount of fuel on the 
forest floor. Anyone who's ever been to a bonfire or gone 
camping, it's a fairly simple notion that if you want the fire 
warmer, you put more wood on the fire, right?
    Mr. Harvey. Yes, sir.
    Mr. Palmer. Representative White, have you ever had to do 
that to warm up?
    Mr. White. Yes, sir.
    Mr. Palmer. Well, the more wood on the floor makes a hotter 
fire. And even mature trees can be killed because the fire 
burns too hot. That's a fundamental principle of forest fires. 
And you also want to be able to use fire as a management tool.
    Mr. Harvey. Yes, sir.
    Mr. Palmer. That's good for wildlife, all sorts of 
wildlife. A lot of people think burning the woods is bad for 
wildlife, but it's good. And it's good forest management. But 
if there's too much fuel on the floor, you can't do that, can 
you?
    Mr. Harvey. No, sir. Much of our forests are impassable 
because of that same reason.
    Mr. Palmer. Well, and that goes back to what I said earlier 
about the dangers that creates for firefighters. Because a fire 
that burns with that intense level of heat is not only 
potentially deadly for the trees, it is potentially deadly for 
the forest firefighters that are in there.
    I also want to point out that there's this false narrative 
that when you do select cutting or when you open up Federal 
forestlands for logging, it creates this false narrative that 
it's clearcutting. And that's not the case, is it?
    Mr. Harvey. No, sir, not in eastern Oregon especially. Like 
I mentioned, the limited moisture for a year, of 12 inches, we 
don't use--we only do selective cutting. We cannot do 
clearcutting. We don't want to do clearcutting.
    Mr. Palmer. Well, when you have limited moisture or 
particularly intense droughts, when you thin, it increases--is 
it correct to say it increases the survivability of the 
remaining forest?
    Mr. Harvey. Yes, sir, it does. That's the design of 
management of forest, which they do not do anymore.
    Mr. Palmer. Right.
    Mr. White. It will also raise the water table, too, in the 
ground.
    Mr. Harvey. Yes.
    Mr. Palmer. That's exactly right, because you don't have as 
much competition for the water.
    One of the other things that I want to point out, Mr. 
Chairman, is that there are 1.1 million acres of forestland 
that we have lost to forest fire and to disease that now needs 
to be replanted. I don't know if any of that's in Oregon or 
Montana or California.
    Mr. Harvey. All the time.
    Mr. Palmer. All the time. And that there's 58 million acres 
that are on the ``high'' or ``very high'' risk right now.
    Mr. Harvey. Yes, sir.
    Mr. Palmer. So my question is, to the panel: Does it make 
sense to continue the practices that we employ now to manage 
our Federal forests when we've already lost millions of acres, 
some that will take--it'll take years, maybe decades, to 
recover? When there are 58 million acres that are at risk or 
very high risk, does it make sense to continue to limit access 
to these forests or to continue the management practices that 
allow unbelievable amounts of fuel to collect on the forest 
floor?
    Mr. Harvey. Sir, I believe that's the definition of 
``insanity,'' doing the same thing over and over and not 
getting any different results.
    Mr. Palmer. I will not disagree with that for the record.
    Any other comments, Mr. Harvey?
    Mr. Harvey. Yes, sir. We're fighting for the potential of 
actually managing. When you lock it up, that's neglect, and 
that's destruction by neglect. We can't continue to do that. I 
lost 130,000 acres in the fires that I described earlier. I 
can't afford to do that every year. I've only got a 15-year 
supply at that rate. That's the rest of my county.
    Mr. Palmer. And there are ranchers and homeowners and other 
people who've suffered losses as a result of fires that burned 
out of control.
    Ms. Granat, in regard to access for vehicles, I limit what 
you can drive on my forest, as we limit what can be driven on 
U.S. highways.
    And I don't understand why we can't have laws, Mr. 
Chairman, that allow people to operate vehicles on roads and 
maintain those roads, again, pay for it with the management of 
the forest, that have the same kind of traffic control in the 
forest that we do. You know, you've got to catch people who 
abuse the law, but the same thing is true on our highways.
    So I just think we need a commonsense approach to this. You 
know, make the forest accessible to the people, all kinds of 
people, even people with impaired abilities, but also manage 
the forest in a way that makes sense and pay for it with the 
resources that we have.
    With that, Mr. Chairman, I thank you for holding the 
hearing, I thank the witnesses, and I yield back.
    Mr. Gianforte. Okay. Thank you.
    And I want to thank the witnesses as well. This is a very 
important discussion to make sure the public has access to the 
public's land and we can get back to start managing our forests 
again.
    Again, I thank each of you for being here.
    The hearing record will remain open for 2 weeks for any 
member to submit a written opening statement or questions for 
the record.
    Mr. Gianforte. And if there's no further business, without 
objection, the subcommittee stands adjourned.
    [Whereupon, at 3:23 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
